U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                PUBLIC

               RELEASE



              OFFICE OF THE CHIEF

             INFORMATION OFFICER

           Use of Internet “Cookies” and
     “Web Bugs” on Commerce Web Sites
    Raises Privacy and Security Concerns
            Inspection Report No. OSE-14257/April 2001




                           Office of Systems Evaluation

U.S. Department of Commerce                                                                  Final Inspection Report OSE-14257

Office of Inspector General                                                                                           April 2001


                                                 TABLE OF CONTENTS



EXECUTIVE SUMMARY ............................................................................................................. i


INTRODUCTION .......................................................................................................................... 1


OBJECTIVES, SCOPE, AND METHODOLOGY........................................................................ 2


FINDINGS AND RECOMMENDATIONS................................................................................... 4


I.    Unauthorized Internet Cookies Were Found on Department Web Sites................................. 4

      A. Recommendations........................................................................................................... 6


II.   Use of Web Bugs Raises Privacy and Security Concerns....................................................... 7

      A. Recommendations........................................................................................................... 7


III. Privacy Statements Should Be Modified to Comply with Department Policy ...................... 8

     A. Recommendations........................................................................................................... 10


APPENDIXES 

   A. Department Web Pages Where Web Bugs Were Detected
   B. CIO Response to Report
U.S. Department of Commerce                                                       Final Inspection Report OSE-14257

Office of Inspector General                                                                               April 2001


                                            EXECUTIVE SUMMARY


Persistent Internet “cookies” are data stored on web users’ hard drives that can identify users’
computers and track their browsing habits. “Web bugs” are software code that can monitor who
is reading a web page. In addition to being able to track a user’s browsing habits, web bugs can
also download files from and upload files to a user’s computer. Although these technologies
have uses that do not raise privacy concerns, they are capable of being employed in a way that
would violate the privacy of individuals visiting the Department’s web sites. Web bugs can also
be security threats.

This report documents our evaluation of the use of persistent Internet cookies and web bugs by
departmental Internet sites, as well as the adequacy of the privacy statements posted on the main
web pages1 of the Department and its operating units. We conducted our evaluation in response
to Public Law 106-554, the Consolidated Appropriations Act of 2001, which requires the
Inspector General of each department or agency to submit a report to the Congress disclosing
any activity regarding the collection of information relating to any individual’s access or viewing
habits on the department’s or agency’s Internet sites.2

We found that the majority of the Department’s Internet sites do not use either persistent cookies
or web bugs. However, we did find several instances in which persistent cookies were being
used without a compelling reason or the approval of the Secretary of Commerce, as required by
Department and Office of Management and Budget policy. (See page 4.) We also found a
number of web pages using web bug technology. (See page 7.) At the time of our fieldwork,
the Department did not have a policy regulating web bug use. On April 24, the Chief
Information Officer (CIO) issued a memorandum entitled Use of “Web Bugs” on Commerce
Web Sites, which establishes a policy for web bugs similar to that for persistent cookies. Finally,
we found that many of the operating units’ privacy statements do not provide all of the
information required by the Department’s privacy policy. (See page 8.)

We recommend that the Department’s CIO direct operating unit CIOs and senior management to
implement a strategy to control the use of persistent cookies and web bugs and to certify
annually that the operating unit is in compliance with the Department’s applicable policies. (See
pages 6 and 7.) We also recommend that the Department’s CIO direct operating unit CIOs and
senior management to revise their privacy policy statements to make them compliant with the
Department’s privacy policy. (See page 10).

We discussed our findings with the Department’s CIO on April 16, 2001. The CIO agreed with
our findings, quickly promulgated a policy addressing the use of web bugs, worked with us to
help ensure that the cookies we had identified were removed, and is now working to remove the
web bugs. Because the CIO agreed with the findings and recommendations, we are issuing this
report in final. The CIO’s memorandum indicating his concurrence is included as Appendix B to
this report.


1
    A web page is an entry point, often called a home page, to a World Wide Web information site.
2
    An Internet site is a computer system hosting a collection of web pages on a particular subject.




                                                            i
U.S. Department of Commerce                                                       Final Inspection Report OSE-14257

Office of Inspector General                                                                               April 2001


                                                 INTRODUCTION


On December 21, 2000, the President signed Public Law 106-554, the Consolidated
Appropriations Act of 2001.3 Section 646 of the act requires the Inspector General of each
department or agency to submit a report to the Congress disclosing any activity regarding the
collection of information relating to any individual’s access or viewing habits on the
department’s or agency’s Internet sites.4

This report documents our evaluation of the use of persistent Internet cookies and web bugs by
Departmental Internet sites, as well as the adequacy of the privacy statements posted on the main
web page5 of the Department and each operating unit. Persistent cookies are data stored on web
users’ hard drives that can identify the users and track their browsing habits. Web bugs are
software code that can monitor who is reading a web page. In addition to being able to track a
user’s browsing habits, web bugs can also download files from and upload files to a user’s
computer. Although these technologies have uses that do not raise privacy concerns, they are
capable of being employed in a way that would violate the privacy of individuals visiting the
Department’s web sites. Web bugs can also be security threats.

Persistent Internet Cookies

To address Internet privacy concerns of users of government web pages, the Office of
Management and Budget (OMB) issued OMB Memorandum 00-13, Privacy Policies and Data
Collection on Federal Web Sites, dated June 22, 2000. The memorandum states that government
web pages should not use Internet cookies without the approval of the agency head and that
cookies can be used only if (1) the site gives clear and conspicuous notice, (2) there is a
compelling need to gather the data, and (3) appropriate and publicly disclosed privacy safeguards
exist for handling any information so gathered.

The Department’s Chief Information Officer (CIO) clarified OMB’s policy to the operating unit
CIOs in an October 20, 2000, memorandum, Use of “persistent cookies” on Commerce Web
Sites. This memorandum distinguished between persistent cookies and session cookies. Because
persistent cookies remain on users’ hard drives after a browsing session is completed and can be
used to track individuals’ browsing habits, they are not allowed without Secretarial approval.
Session cookies, which are not used to track the browsing habits of users, do not remain on
users’ hard drives and are permitted if their use is disclosed in the web page privacy statement.

The CIO’s memorandum assigns to operating unit CIOs the responsibility for ensuring that
persistent cookies are not used to collect personal information and track the browsing habits of




3
 The law comprises several appropriations measures, including the Departments of Treasury, Labor, Health and
Human Services, and Education, and Related Agencies Appropriations Act, 2001.
4
    An Internet site is a computer system hosting a collection of web pages on a particular subject.
5
    A web page is an entry point, often called a home page, to a World Wide Web information site.



                                                             1

U.S. Department of Commerce                                      Final Inspection Report OSE-14257
Office of Inspector General                                                              April 2001

Department web page users. If an operating unit requires the use of persistent cookies, it must
submit a request describing the compelling need to the Secretary of Commerce through the
Department’s CIO and provide a copy of the web page privacy statement that discloses how the
information derived from persistent cookies will be used.

On January 11, 2001, Commerce’s CIO council adopted the Department’s policy on the use of
persistent cookies, which supercedes the CIO’s October 20 memorandum. In general, this policy
restates the content of the CIO’s memorandum and the OMB memorandum.
At the time of our fieldwork, no operating unit had submitted a request to the Secretary for
approval to use persistent cookies on any Department web page.

Web Bugs

A growing threat to both privacy and security is a technology known as web bugs. Web bugs are
capable of tracking web users’ browsing habits, downloading files from users’ computers, and
storing files on users’ computers without their knowledge. Web bugs are invisible to a user
without specific detection software. The software code associated with web bugs can exist on
the computer hosting the web page or on another computer connected to the Internet. When a
user views the web page, the results from the execution of the web bug are sent to the web user’s
computer and acted upon. The actions performed by a web bug that resides on a computer
outside the control of the web page owner (i.e., non-departmental controlled computers) cannot
be certified to perform the intended action. For example, the code could have a hidden malicious
action, such as to install an application on the user’s computer to monitor and track information
when interacting on the Internet or to assume control of the computer.

Because the use of web bugs is relatively new, neither OMB nor the Department had a policy
regulating their use on government web pages. On April 24, after we brought this matter to his
attention, the Department’s CIO issued a policy for use of web bugs similar to that for use of
persistent cookies.


                      OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of this evaluation was to determine whether the Department’s web pages comply
with Department and OMB policies regarding Internet privacy. Specifically, we evaluated the
web pages to determine if persistent cookies were being used, and we reviewed the adequacy of
the privacy statements posted on the main web pages of the Department and its operating units.
We expanded our scope to address web bugs since their use raises privacy concerns similar to
those raised by persistent cookies, as well as security concerns. To view the web pages of the
Department and its operating units, we used Microsoft Internet Explorer configured to detect the
presence of Internet persistent cookies. Additionally, we used a tool obtained from the
University of Denver Privacy Center, which we installed in Explorer, to detect the presence of
web bugs.




                                               2

U.S. Department of Commerce                                      Final Inspection Report OSE-14257
Office of Inspector General                                                              April 2001

In discussions held with the Department’s CIO staff and operating unit CIOs and staff as we
planned our evaluation strategy, we found that reliable data was not available on the number of
web sites or web pages in the Department. This is the case, in part, because the operating unit
CIOs do not control many of the departmental web sites. Instead, a significant number of web
sites are controlled by line organizations within the operating units. Therefore, our evaluation
strategy was to start with the main Department web site, along with the main web site for each of
the operating units, and systematically assess them. For each web page, this involved spending
several minutes making selections to obtain information available on that web page and then
visiting other web pages that were referenced by the initial web page under evaluation. While
our evaluation could not be exhaustive in terms of assessing every Department web page, we
believe that our work provides an important indication of the challenges of complying with
privacy requirements on federal web sites.

We conducted our fieldwork between February and April 2001, holding an entrance conference
with the Department’s CIO on February 14, and meeting with him again on April 16 to discuss
our findings. Because the CIO concurred with our findings and recommendations, we are
issuing this report in final.

This evaluation was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency and was performed under the authority of
the Inspector General Act of 1978, as amended, and Department Organization Order 10-13,
dated May 22, 1980, as amended.




                                                3

U.S. Department of Commerce                                              Final Inspection Report OSE-14257

Office of Inspector General                                                                      April 2001




                            FINDINGS AND RECOMMENDATIONS


I.	     Unauthorized Internet Cookies Were
        Found on Department Web Sites

Our evaluation detected 12 unauthorized persistent cookies on Department web pages in
violation of both Department and OMB policy. Four of the cookies are what are known as
client-side state cookies, and the other eight are known as third-party cookies. While privacy
issues are a concern with both types of cookies, the presence of third-party cookies is especially
serious because the data they collect is completely out of the Department’s control.

Client-side state cookies are used by web pages to store small amounts of information on the
user’s hard drive and exchange it with the web server each time the web page is visited. At
present, the primary privacy threat is the ability to actively track web visitors by assigning a
unique tag that is stored in the cookie and maintained by the web site. Thus, every time the web
user visits the web page, the unique tag stored in the cookie is matched with a tag stored in a
database on the web site, resulting in browsing habit information being captured and maintained
on specific web users. In our discussions with the officials responsible for the web sites, we
were told that one was using a client-side cookie to identify new web site visitors, while the
others were not obtaining any specific user information.

Third-party cookies raise additional privacy concerns. They are commonly associated with
graphic images referenced in the HTML6 code for a web page. These images actually reside on
another computer connected to the Internet. As the HTML code is executed to present the user
with the display of the web page, the images are retrieved from the third-party computer and
displayed on the user’s computer, third-party cookies are stored on the user’s computer, and
browsing habit information is captured and maintained on the third-party computer in a way
similar to client-side cookies. The third-party cookies we detected were associated with non­
government computers, resulting in the storage of any captured privacy information on
computers over which the Department has no control. Unless users specifically configure their
browsers to alert them to cookies, the information is sent and received without user knowledge
or involvement.

The 12 persistent cookies that we detected are discussed below:

Client-State Persistent Cookies

•	 Found on the web page http://oamweb.osec.doc.gov, hosted by the Office of Acquisition
   Management within the Office of the Secretary, with an expiration date of December 31,
   2010. According to this office, the cookie was being used to count the number of visitors to
   the site and was not capturing any privacy information. After being informed that the cookie
   violated Department and OMB policy, the office removed it.


6
 HTML stands for Hyper Text Markup Language, the language used to create web documents and to generate the
web page on a user’s display.



                                                     4

U.S. Department of Commerce                                      Final Inspection Report OSE-14257
Office of Inspector General                                                              April 2001

•	 Found on the web page http://www.commits.doc.gov, hosted by the Office of Acquisition
   Management within the Office of the Secretary, with an expiration date of December 31,
   2010. According to this office, the cookie was being used to count the number of visitors to
   the site and was not capturing any privacy information. After being informed that the cookie
   violated Department and OMB policy, the office removed it.

•	 Found on the web page http://www.osf.noaa.gov, hosted by the Next Generation Weather
   Radar Operations Center within the National Weather Service (NWS), with an expiration
   date of January 1, 2035. According to NWS officials, they were not aware of the existence
   of the cookie because it was not part of the code associated with the web page. Rather, the
   cookie was produced by the Microsoft Internet Information Server product, which is used to
   support the center’s web page operation. After we identified the cookie, NWS learned that a
   default installation setting caused the server product to generate a persistent cookie and
   changed the setting to eliminate the cookie. NWS told us that no privacy information was
   captured through the use of the cookie.

•	 Found on web page http://www.fakr.noaa.gov, hosted by the Alaska Regional Office of the
   National Marine Fisheries Service, with an expiration date of December 31, 2010. The
   cookie was being used to identify new visitors to the web site. After being informed that the
   cookie violated Department and OMB policy, the office removed it.

Third-Party Persistent Cookies

•	 Found on web page http://sites.usatrade.gov/ctm, hosted by the U.S. and Foreign
   Commercial Services within the International Trade Administration. The third-party web site
   that created the cookie was located at netscape.com, and the expiration date was June 29,
   3379. The cookie was being used to count the number of visitors to the web site. After
   being informed that the cookie violated Department and OMB policy, the office removed it.

•	 Found on web page http://www.mac.doc.gov/ftaa2005/index.htm, hosted by the Office of
   NAFTA and Intra-American Affairs within the International Trade Administration. The
   third-party web site that created the cookie was located at h2.humanclick.com, and the
   expiration date was April 13, 2002. The purpose of the cookie is not known, and it has been
   removed.

•	 Found on web page http://www.ita.doc.gov/td/energy, hosted by the Office of Trade
   Development within the International Trade Administration. The third-party web site that
   created the cookie was located at h2.humanclick.com, and the expiration date was April 13,
   2002. The purpose of the cookie is not known. After being informed that the cookie
   violated Department and OMB policy, the office removed it.

•	 Found four cookies on web page http://www.nmfs.noaa.gov/acquaculture.htm, hosted by
   the National Marine Fisheries Service. The third-party web site that created the cookies was




                                               5

U.S. Department of Commerce                                         Final Inspection Report OSE-14257
Office of Inspector General                                                                 April 2001

      located at superstates.com, and their expiration date was December 31, 2010. The cookies
      were being used to count the number of visitors to the web site. After being informed that
      the cookies violated Department and OMB policy, the office removed them.

•	 Found on web page http://seafood.nmfs.noaa.gov, hosted by the National Marine Fisheries
   Service. The third-party web site that created the cookie was located at aaddzz.com, and the
   expiration date was May 3, 2001. The cookie was being used to count the number of visitors
   to the web site. After being informed that the cookie violated Department and OMB policy,
   the office removed it.

The Department currently has a policy entitled Enforcement of Web Site Standards and Policies,
requiring the operating unit CIOs to certify annually to the Department’s CIO that all web sites
of their organization comply with the Department's web standards and policies. If any
deficiencies exist, the operating unit CIO is to provide a plan to bring the web sites into
compliance, and the Department’s CIO is to determine whether the proposed approach is
acceptable. The Department’s CIO has the authority to shut down any site for non-compliance.
We believe that the certification should explicitly state whether persistent cookies are being used,
and if so, indicate the compelling reason and whether Secretarial approval has been obtained.
Most operating unit CIOs do not control all of the web pages of their unit. For those units, we
believe that the certification regarding persistent cookies should be made by the head of the
operating unit.

The Department and operating units must take aggressive steps to ensure that persistent cookies
are not used on their web pages unless a compelling need can be demonstrated and Secretarial
approval is obtained. Particular vigilance is needed to ensure that third-party cookies are not
used.

A.     Recommendations

We recommend that the Department’s Chief Information Officer:

1.	      Reiterate the Department’s policy on use of persistent cookies to all operating unit CIOs
         and senior management.

2.	      Work with each operating unit’s CIO and senior management to implement a strategy to
         control the use of persistent Internet cookies to include:

         a.	 Activities to monitor the use of persistent cookies on their web pages,

         b.	 Definition of a periodic timeframe to perform monitoring activities, and

         c.	 Annual certification by the senior management or CIO of each operating unit to the
             Department’s CIO that either no persistent cookies or only approved persistent
             cookies are used on its web pages.




                                                  6

U.S. Department of Commerce                                        Final Inspection Report OSE-14257

Office of Inspector General                                                                April 2001




II.	    Use of Web Bugs Raises Privacy
        and Security Concerns

We found web bugs on 23 web pages. The locations of these web bugs are listed in Appendix A.
As noted previously, because the use of web bugs is relatively new, the Department did not have
a policy to regulate their use at the time of our fieldwork, but has recently issued such a policy.
The privacy concern is that, like persistent cookies, web bugs can be used to track the web
browsing habits of visitors to Department web page. Web bugs also present a security threat
because they can be used to perform malicious actions against the computer systems used by
web page visitors.

Some examples of the malicious actions that web bugs can perform include searching for the
existence of specific information, such as financial information, on a user’s hard drive;
downloading files from a user’s system; and uploading files onto a user’s computer. A web user
would be unaware of the presence of web bugs without using detection software. Even if such
software were used, the malicious actions performed by identified web bugs could go
undetected.

In all but a single instance, the web bugs that we detected exchanged information with non­
government computers. Thus, for all of the identified web bugs but one, the software executed
by the web bugs resides on non-government computers. The fundamental risk to privacy and
information security is the lack of Department control over the web bug software. Even if the
web bug software were determined by Department information security personnel to be safe to
use, the software is still not under Department control. Consequently, the software could be
modified without Department knowledge, and malicious actions could be inserted into the web
bug code. Due to the limited scope of our review, we did not evaluate the web bugs that we
found for malicious actions.

As with persistent cookies, we believe that the certification of compliance with web standards
and policies should explicitly state whether web bugs are being used, and if so, indicate the
compelling reason and whether Secretarial approval has been obtained. In operating units where
the CIO does not control all of the web pages, the certification regarding use of web bugs should
be made by the head of the operating unit. Finally, the Department and operating units must
aggressively ensure that web bugs are not used on their web pages unless a compelling need can
be demonstrated and Secretarial approval is obtained.

A.     Recommendations

We recommend that the Department’s Chief Information Officer:

1.	 Ensure that all web bugs found by our evaluation, as well as any other web bugs, are
    removed from Department web pages.

2.	 Reiterate the Department’s policy on use of web bugs to all operating unit CIOs and senior
    management.



                                                 7

U.S. Department of Commerce                                                   Final Inspection Report OSE-14257
Office of Inspector General                                                                           April 2001



3.	 Work with each operating unit’s CIO and senior management to implement a strategy to
    control the use of web bugs to include:

        a.	 Activities to monitor the use of web bugs on their web pages,

        b.	 Definition of a periodic timeframe to perform monitoring activities, and

        c.	 Annual certification by the senior management or CIO of each operating unit to the
            Department’s CIO that either no web bugs or only approved web bugs are used on its
            web pages.

III.	   Privacy Statements Should Be Modified
        to Comply with Department Policy

Our review of the privacy statements posted on the Department’s and operating units’ main web
pages revealed that the majority do not comply with Department policy. The Department’s CIO
Council approved the policy entitled Privacy Statements and Information Collection on
September 14, 2000.7 The policy requires that the information collection practices be described
in terms of (1) what information is collected, (2) how long information is retained, (3) how the
information is used, (4) how e-mail messages are handled, and (5) what use, if any, is being
made of Internet cookies. In addition, the link from a web page to the privacy statement should
be clearly labeled.

Table 1 identifies which elements of the privacy statements that we examined comply with the
Department’s privacy policy. Of the 23 privacy statements we reviewed, we found the following
five to be compliant: Department, Office of the Secretary, Economic Development
Administration, National Institute of Standards and Technology, and Office of Inspector General.
The privacy statements of the Bureau of Export Administration and the Bureau of Economic
Analysis partially address the policy in terms of generally defining the kinds of information
collected but do not precisely describe this information. Two elements of the Economic
Development Administration’s statement are marked as not applicable because the privacy
statement indicates that its web pages do not collect any information from web visitors.

The web pages for the Technology Administration and the Office of Technology Policy do not
clearly identify the link to their privacy statements. For both of these web pages, the link used to
obtain the privacy statement is labeled as “Credits and Disclaimers.” The Department’s policy
states that the link to a privacy statement must be clearly labeled.




7
 Because of our limited scope, we did not evaluate the privacy statements on pages beyond the operating units’
main web pages.



                                                        8

U.S. Department of Commerce                                               Final Inspection Report OSE-14257

Office of Inspector General                                                                       April 2001





                                           Table 1

                  Status of Department and Operating Unit Privacy Statements


                                                                                                    Internet
                                          Information      Information   Information   E-Mail
             Organization                                                                           Cookie
                                          Collected        Retention     Use           Handling
                                                                                                    Use
Department of Commerce                        �                 �            �             �            �
Office of the Secretary                       �                 �            �             �            �
Bureau of Export Administration             Partial                          �             �            �
Economics and Statistics Administration       �                 �            �             �
Bureau of Economic Analysis                 Partial             �            �                         �
Bureau of the Census                          �                              �             �           �
STAT USA                                      �                �             �             �
Economic Development Administration           �               N/A           N/A            �           �
International Trade Administration            �                              �
Minority Business Development Agency
National Oceanic and Atmospheric
Administration                                 �                �             �
National Weather Service                                                      �
National Environmental Satellite, Data,
and Information Service                        �                �             �
National Marine Fisheries Service              �                �             �
National Ocean Service                         �                              �            �           �
NOAA Research                                  �                �             �
National Telecommunications and
                                               �                �             �
Information Administration
Office of Inspector General                    �                �             �            �           �
U.S. Patent and Trademark Office               �                              �            �           �
Technology Administration                      �                              �            �
National Institute of Standards and
                                               �                �             �            �           �
Technology
National Technical Information Service         �                                           �           �
Office of Technology Policy                    �                              �            �

� Indicates compliance with the specified policy element.

       Denotes that the organization is fully compliant with all policy elements.

N/A–Not applicable




                                                      9

U.S. Department of Commerce                                      Final Inspection Report OSE-14257
Office of Inspector General                                                              April 2001

A. 	 Recommendations

We recommend that the Department’s Chief Information Officer:

1.	 Direct the operating unit CIOs and senior management to ensure that appropriate changes are
    made to their privacy statements so that they are compliant with the Department’s privacy
    policy.

2.	 Direct the operating unit CIOs and senior management to ensure that all web page links to a
    privacy statement are labeled as either “Privacy Statement” or “Privacy Notice.”




                                               10

U.S. Department of Commerce                                                 Final Inspection Report OSE-14257
Office of Inspector General                                                                         April 2001




                                                                                                 APPENDIX A


                          Department Web Pages Where Web Bugs Were Detected1


                                  The Bureau of Export Administration
www.bxa.doc.gov
www.bxa.doc.gov/factsheets/facts3.htm
www.bxa.doc.gov/FOIA/PrivacyInfo.html
www.bxa.doc.gov/factsheets/ExporterAssistance.html
www.bxa.doc.gov/AntiboycottCompliance/OACRequirements.html
www.bxa.doc.gov/AntiboycottCompliance/OACAntiboycottRequestExamples.html
www.bxa.doc.gov/Seminars/SeminarDescription.htm
www.bxa.doc.gov/Seminars/elsem.htm
www.bxa.doc.gov/DPL
www.bxa.doc.gov/DPL/denialist.html
www.bxa.doc.gov/DPL/LastChanges.html
www.bxa.doc.gov/Enforcement/eeprogrm.htm

                             International Trade Administration
www.trade.gov/td/tic/
www.ita.doc.gov/td/aerospace/
www.ita.doc.gov/td/energy/
infoserv2.ita.doc.gov/ot/home.nsf
www.ita.doc.gov/td/auto/

                    National Oceanic and Atmospheric Administration
seafood.nmfs.noaa.gov/
www.nmfs.noaa.gov/trade/Japan98SoftshellTurtleMarket.htm
www.nmfs.noaa.gov/trade/JAPAN98LIVEfishreport.htm
www.nmfs.noaa.gov/trade/Japan98SummerFlounder.htm
www.nmfs.noaa.gov/trade/EUCONTENTS.htm

                            National Institute of Standards and Technology
www.nist.gov/success/




1
    All of the web bugs except for NIST’s exchanged information with non-government computers.


                                                      A-1

